CERTIFICATE OF SERVICE
T hereby certify that, on this twentieth day of November, 2019, I caused a
copy of the foregoing Application for Extension of Time to be served on the following
by first-class mail, postage pre-paid:

Noel Francisco

United States Solicitor General
Department of Justice

950 Pennsylvania Ave., N.W.
Washington, DC 20530

Counsel for the United States
Attorney General; Department of
Justice; United States Bureau of
Alcohol, Tobacco, Firearms, &
Explosives; Thomas E. Brandon,
Deputy of the ATF; Ronald B. Turk,
Associates Deputy Director /Chief
Operating Office of the ATF;
Federal Bureau of Investigation;

and the United States of America a

FREY T. GREEN
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
